NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




         MATERIAL LOSS REVIEW OF
        O.U.R. FEDERAL CREDIT UNION


             Report #OIG-12-11
              October 2, 2012




             William A. DeSarno
             Inspector General


                Released by:



             James W. Hagen
          Deputy Inspector General
                         Table of Contents


Section                                                Page




ACRONYMS AND ABBREVIATIONS                              ii


EXECUTIVE SUMMARY                                       1


INTRODUCTION AND BACKGROUND                             3


OBJECTIVES, SCOPE, AND METHODOLOGY                      5


RESULTS IN DETAIL                                       8

  A. Why O.U.R. Federal Credit Union Failed             8

  B. NCUA Supervision of O.U.R. Federal Credit Union   13


SUGGESTIONS                                            16


APPENDIX

  A. NCUA Management Response                          19




                                                              i
ACRONYMS AND ABBREVIATIONS

AEP             Annual Examination Scheduling Program
AIRES           Automated Integrated Regulatory Examination System
AUP             Agreed Upon Procedures
Board           Board of Directors
Call Reports    NCUA 5300 Call Reports
                [C]apital Adequacy, [A]sset Quality, [M]anagement,
CAMEL
                [E]arnings, and [L]iquidity/Asset-Liability Management
Credit Union    O.U.R. Federal Credit Union
DOR             Document of Resolution
FCU Act         Federal Credit Union Act
FICU            Federally Insured Credit Union
GAGAS           Generally Accepted Government Auditing Standards
LICU            Low Income Credit Union
LUA             Letter of Understanding and Agreement
MLR             Material Loss Review
NCUA            National Credit Union Administration
NCUSIF          National Credit Union Share Insurance Fund
NWRP            Net Worth Restoration Plan
OIG             Office of Inspector General
O.U.R. FCU      O.U.R. Federal Credit Union
P&A             Purchase and Assumption
PCA             Prompt Corrective Action
RFE             Risk-Focused Examination




                                                                         ii
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP (Moss Adams) to conduct a Material Loss Review
(MLR) of O.U.R. Federal Credit Union (O.U.R. FCU or the Credit Union), a federally
insured federal credit union (FCU). We reviewed O.U.R. FCU to: (1) determine the
cause(s) of the Credit Union’s failure and the resulting estimated $3.7 million loss to
the National Credit Union Share Insurance Fund (NCUSIF); (2) assess NCUA’s
supervision of the Credit Union; and (3) provide appropriate suggestions and/or
recommendations to prevent future losses. To achieve these objectives, we
analyzed NCUA examination and supervision reports and related correspondence,
interviewed NCUA officials and regional staff, and reviewed NCUA guidance,
including regional policies and procedures, and NCUA 5300 Call Reports (Call
Reports).

We determined O.U.R. Federal Credit Union failed for the following reasons:

    •   Suspicious Activity
        The manager of O.U.R. FCU was involved in highly suspicious activities that
        deliberately manipulated the accounting and misstated financial reports.
        Numerous inconsistencies and unsupported entries were found, the most
        flagrant of which was a $1.6 million imbalance between the member share
        subsidiary and the general ledger.
    •   Ineffective Board of Directors Oversight
        Board of Directors (Board) oversight and responsiveness of O.U.R. FCU was
        not effective. Governance issues of particular concern related to undisclosed
        related party activity, incomplete minutes, and the lack of understanding of
        financial results, as well as the lack of due diligence to develop strategy,
        manage risk, or follow-up on examination findings.
    •   Weak Control Environment
        Management created a weak control environment at O.U.R. FCU, which
        allowed for inaccurate account reconciliations, control deficiencies in cash
        handling, and a lack of timely recording of transactions, preparation of
        account reconciliations, and monthly financial close. Additionally, segregation
        of duties and/or mitigating controls were inadequate due to the lack of
        competent accounting staff and the manager’s unrestricted access to the
        general ledger.
    •   Inaccurate Accounting
        Deficient accounting and financial reporting practices at O.U.R. FCU resulted
        in inaccurate accounting, unsupported journal entries, lack of timely monthly


                                                                                      1
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



           financial closings and submission of Call Reports, as well as unusual and
           unexpected income and expense trends.

In addition, we determined examiners missed the opportunity to prevent or reduce
the loss to the NCUSIF due to:

       •   Incomplete exam procedures, including the lack of an adequate reconciliation
           of member share accounts;
       •   Ineffective resolution of issues raised in the examinations;
       •   Inadequately assessed risks related to this low income Credit Union given
           the weak internal control environment, and procedures did not fully address
           those risks.

We identified similar issues during this review as those found in a prior OIG MLR
report. 1 Therefore, we are re-emphasizing the recommendations from that MLR and
are making two suggestions to NCUA management related to AIRES downloads and
expanded examination procedures. Management’s response to the OIG’s re-
emphasized recommendations and two new suggestions can be found in their
entirety at Appendix A.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




1
    Material Loss Review of Vensure Federal Credit Union (OIG-12-05), dated February 29, 2012.
                                                                                                 2
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



INTRODUCTION AND BACKGROUND

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP to conduct a Material Loss Review (MLR, review,
audit) for O.U.R. Federal Credit Union (O.U.R. FCU or the Credit Union), as required
by Section 216 of the Federal Credit Union Act (FCU Act), 12 U.S.C. 1790d(j).
O.U.R. FCU was a federally chartered Credit Union located in Eugene, Oregon.
NCUA’s Region V provided supervision over the Credit Union.

History of O.U.R. Federal Credit Union
O.U.R. Federal Credit Union was a Community Development Financial Institution
chartered in 1969. The Credit Union operated out of one location in Eugene,
Oregon. O.U.R. FCU’s mission was to serve the residents of Lane County, Oregon
who participated within the past 12 months in programs of the Lane County
Department of Community Health and Social Services. As of March 31, 2011, the
Credit Union reported $4.3 million in assets and 2,184 members.

The Credit Union relied heavily on nonmember deposits and secondary capital,
mainly in the form of grants, to supplement operating capital. The frequency and
amounts of these grants were irregular and hard to predict, creating on-going capital
concerns.

In May of 2011, a specialist, hired by the interim manager, discovered an imbalance
of $1.6 million between the share accounts and the general ledger. After the
specialist made the necessary accounting adjustments to reflect their financial
position, it was apparent that O.U.R. FCU was insolvent.

On June 24, 2011, NCUA placed O.U.R. FCU into conservatorship. On December
2, 2011, NCUA liquidated the Credit Union and completed a Purchase and
Assumption (P&A) of certain assets and member shares with Northwest Community
Credit Union of Springfield, Oregon. The failure of O.U.R. FCU resulted in a loss to
the NCUSIF of $3.7 million.

NCUA Examination Process
Total Analysis Process
NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL 2 components, and reviewing qualitative and quantitative measures.


2
 The acronym CAMEL derives its name from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
                                                                                                          3
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



NCUA uses the CAMEL Rating System for evaluating the soundness of credit
unions on a uniform basis, the degree of risk to the National Credit Union Share
Insurance Fund (NCUSIF), and for identifying those institutions requiring special
supervisory attention or concern. The CAMEL rating includes consideration of key
ratios, supporting ratios, and trends. Generally, the examiner uses the key ratios to
evaluate and appraise the credit union’s overall financial condition. During an
examination, examiners assign a CAMEL rating, which completes the examination
process.

Examiner judgment affects the overall analytical process. An examiner’s review of
data includes structural analysis 3, trend analysis 4, reasonableness analysis 5,
variable data analysis 6, and qualitative data analysis 7. Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the numbers
to determine the significance of the supporting ratios and trends. Furthermore, the
NCUA requires examiners to determine whether material negative trends exist,
ascertain the action needed to reverse unfavorable trends, and formulate, with credit
union management, recommendations and plans to ensure implementation of these
actions.

Risk-Focused Examination Program
In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include reviewing off-site monitoring tools and
risk evaluation reports as well as on-site work. The RFE process includes reviewing
seven categories of risk: Credit, Interest Rate, Liquidity, Transaction, Compliance,
Strategic, and Reputation. Examination planning tasks may include: (a) reviewing
the prior examination report to identify the credit union’s highest risk areas and areas
that require examiner follow-up; and (b) analyzing Call Reports as well as the risks

3
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
4
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
5
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
6
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
7
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the Credit Union’s current condition, and its future.
Qualitative data analysis may include assessing lending policies and practices, internal controls, attitude and
ability of the officials, risk measurement tools, risk management, and economic conditions.


                                                                                                                4
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



detected in the credit union’s operations and in management’s demonstrated ability
to manage those risks. A credit union’s risk profile may change between
examinations. Therefore, the supervision process encourages the examiner to
identify those changes in profile through:

    •    Review of quarterly Financial Performance, Risk, and Call Reports;

    •    Communication with credit union staff; and

    •    Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the Annual Examination Scheduling
Program (AEP)8. NCUA indicated these changes were necessary due to adverse
economic conditions and distress in the nation’s entire financial structure, which
placed credit unions at greater risk of loss. The NCUA stated that the Annual
Program would provide more timely relevant qualitative and quantitative data to
recognize any sudden turn in a credit union’s performance.

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this material loss review to satisfy the requirements of Section 216(j)
of the FCU Act, 12 U.S.C. §1790d(j), which requires the OIG to conduct a material
loss review when the NCUSIF has incurred a material loss. 9 Moreover, the 2010
amendments to the FCU Act, embodied in the “Dodd-Frank Wall Street Reform and
Consumer Protection Act,” 10 further require the OIG to conduct an in-depth review of
any loss to the NCUSIF where unusual circumstances exist that might warrant an in-
depth review of the loss. In the case of O.U.R. FCU, the loss did not exceed the $25
million threshold. However, the OIG determined the circumstances surrounding the
loss to the NCUSIF were unusual enough to warrant a review. Specifically, the OIG
determined that the manager’s highly suspect activities warranted performing a full-
scope MLR.

The objectives of the MLR were to:

    1. Determine the cause(s) of the Credit Union’s failure and the resulting loss to
       the NCUSIF;


8
  The AEP requires either an examination or a material on-site supervision contact within a 10 to 14 month
timeframe based on risk-based scheduling availability.
9
  The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.
10
   Public Law 111-203–July 21, 2010, 124 Stat.1939.
                                                                                                                 5
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



    2. Assess the NCUA’s supervision of the institution, including implementation of
       the Prompt Corrective Action (PCA) requirements of Section 208 of the FCU
       Act; and

    3. Make appropriate observations and/or recommendations to prevent future
       losses.

To accomplish our review, we performed fieldwork at the NCUA’s Region V office in
Tempe, Arizona. The scope of this review covers the period from September 2006
through conservatorship in June 2011.

To determine the cause(s) of O.U.R. FCU’s failure and assess the adequacy of
NCUA’s supervision, we:

    •   Prepared a chronology of examination scope and procedures, comments, and
        corrective actions;

    •   Reviewed examination files, including exam reports, risk assessments,
        findings, Documents of Resolution (DOR), confidential sections, corrective
        actions, off-site monitoring, correspondence, and analysis;

    •   Reviewed the Board of Directors minutes and Board packets, as well as any
        Supervisory Committee minutes provided;

    •   Reviewed Agreed Upon Procedures (AUP) attestation engagements and
        member account verifications, including results, findings, and responses;

    •   Reviewed information related to the potential fraud, including the AUP report
        dated July 1, 2011, which was prepared to support the bond claim;

    •   Conducted interviews with NCUA officials and examiners involved at various
        levels in the examination process;

    •   Prepared detailed data tables, graphs, and analyses comparing O.U.R. FCU
        with a peer group of comparable low income credit unions;

    •   Reviewed NCUA and regional rules, regulations, and guidelines; and

    •   Reviewed NCUA Call Reports and other documentation related to the
        supervision of O.U.R. FCU.

We used computer-processed data from NCUA’s AIRES and NCUA online systems.
We did not test controls over these systems; however, we relied on our analysis of

                                                                                        6
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



information from management reports, correspondence files, and interviews to
corroborate data obtained from these systems to support our audit conclusions.

We conducted this audit from March through September 2012 in accordance with
Generally Accepted Government Auditing Standards (GAGAS) and included such
tests of internal controls as we considered necessary under the circumstances.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                                                                  7
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



RESULTS IN DETAIL

We determined that O.U.R. Federal Credit Union’s manager and Board contributed
directly to the Credit Union’s failure. Suspicious activity by the manager was
facilitated by ineffective Board oversight, a weak control environment, inaccurate
accounting, and misstated financial reports. In addition, we determined the loss to
the NCUSIF could have been prevented or reduced had examiners: (1) required a
system generated download of member accounts that reconciled to the general
ledger; (2) more aggressively pursued resolution to issues raised by examiners; and
(3) properly assessed and addressed the risks of the internal control environment.

A. Why O.U.R. Federal Credit Union Failed

                              We determined that the manager of O.U.R. FCU was
  Suspicious                  involved in highly suspect activities that deliberately
  Activity by the             manipulated the Credit Union’s accounting records and
  O.U.R. Manager              misstated its financial reports. We identified these
                              suspicious activities dating back to 2005.

Specific examples include:

    •   Financial reports included in Board packets contained inconsistencies that
        were not addressed in the minutes or accompanied by valid explanations. At
        December 31, 2005, for example, the “New and Closed Shares Report" for
        the month showed a total of 11 new share accounts that were manually
        crossed out. The account with the most significant dollar balance had a share
        balance of $100,000. The account belonging to the manager was also
        crossed out with no explanation.
    •   We obtained the daily general ledger activity reports for the month of
        December 2006, called 584 Reports. The 584 Reports include all general
        ledger entries made during the day. On December 1, 2006, we noted two
        584 Reports. The first 584 Report had 1,251 transactions and was 26 pages
        long. The length of the report and number of transactions was consistent with
        other daily 584 Reports. The second 584 Report, also run on December 1,
        2006, had 10 transactions and was one page in length, with all of the
        transactions posted by the manager. The result was a $760,000 increase to
        the investment in the NCUSIF account, a decrease of $71,000 to internal
        cash accounts, and an increase of $689,000 to total member shares and
        certificates of deposit. No explanation for the entries was noted.
    •   There were also two daily reports called "O.U.R Federal Credit Union Board,
        G/L Trial Balance, After Clear/Close" run on December 1, 2006. One of the
        reports shows the Investment NCUSIF account with a balance of $832,190,
        which included current period activity (month of December) of $760,000,

                                                                                        8
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



           entirely related to 10 transactions made by the manager, as discussed above.
           The second report with the same date shows a balance in the Investment
           NCUSIF account of zero and current period activity balance of zero, entirely
           inconsistent with the prior report. The Investment NCUSIF zero balance in
           this report agrees to the December 31, 2006, internally generated balance
           sheet included in the Board packet.
       •   We noted someone manually crossed off seven certificate of deposit
           accounts totaling $585,000 from the December 2007 system-generated
           certificate report given to the Board. The total certificates on the financial
           statements included in the Board packet and in the Call Report agreed to the
           certificates report only after the manual adjustments were included. We
           noted no discussion in Board minutes regarding these apparent
           discrepancies.
       •   On the December 28, 2007 daily transaction register, we noted a $100,000
           entry posted by the manager to reduce teller cash and increase the share
           account for Oregon Metro Credit Union despite the fact this account closed in
           2004 due to a merger 11. The manager provided no explanation in the
           register.
       •   We obtained teller deposit slips for December 31, 2008, which were posted
           by the manager. We noted that the manager posted transactions to increase
           certain share accounts with the offset to Oregon Metro Credit Union, a credit
           union that, as previously noted, had closed in 2004. The teller deposit slips
           stated that the Credit Union hours on December 31, 2008, were 10 a.m. to 2
           p.m. Transactions, totaling $1,034,470, were made before 10 a.m. on that
           day to increase certificate of deposit share accounts with nonmembers and to
           offset those share increases to Oregon Metro Credit Union. At this point, end
           of day reports and member statements could have been run that would have
           reflected the erroneous share balances. On that same day, after 2 p.m.,
           when the Credit Union was closed, entries were recorded to reverse the
           entries that had been made in the morning – with some reversals being offset
           to accounts other than the original entries, including accounts owned by
           Board members.
       •   In May of 2011, NCUA called in a specialist to help with the development of
           O.U.R. FCU’s Net Worth Restoration Plan (NWRP). In performing those
           duties, the specialist discovered that the general ledger was out of balance
           with the share account subsidiary by nearly $1.6 million, validating that
           someone had manipulated the share account balances.
       •   To follow up on the share account imbalance, an independent auditor
           performed an AUP attestation engagement to identify improprieties related to
           cash and share accounts and to support a potential bond claim. On

11
     Oregon Metro Credit Union merged with First Technology Credit Union in 2004.
                                                                                            9
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



        July 5, 2011, the auditor cited missing documents and suspicious activity
        related to petty cash, payments to the manager’s account, payroll draws,
        vault and teller cash and prepaid accounts, in addition to manipulation of
        share accounts.

We believe irregular and unsupported general ledger entries, member account and
financial results manipulation, and overall suspicious activity performed by the
manager raise serious concerns that improprieties occurred, which materially
influenced O.U.R. FCU’s failure.

Ineffective Board Oversight
The Board is responsible for overseeing the activities of the Credit Union, including
establishing policies, developing strategy, monitoring financial performance, and
reviewing the performance of management. We determined the oversight and
responsiveness of the Board of O.U.R. FCU was not effective. Governance issues
of particular concern relate to undisclosed related party activity, incomplete minutes,
the lack of understanding of financial results, as well as the lack of due diligence to
develop strategy, manage risk, or follow-up on exam findings.

In our review of the September 30, 2010 examination (effective) and supporting
documents, which included a listing of related party loan and deposit accounts, we
noted the list included two accounts belonging to a Board member, who was also on
the Supervisory Committee. In addition, our review of all share accounts revealed
that this same member had five additional share accounts each with the same
address. There was no discussion in the Board minutes concerning related party
activity, nor why this Board member did not disclose these additional related party
accounts.

We determined O.U.R. FCU’s financial statements included in the Board packets
contained inconsistencies that no one addressed in the minutes or supported with
valid explanations. For example, the December 2005 financial reports had manual
cross-outs of certain account balances, including the manager’s own account,
making it difficult to reconcile the system-generated report to the financial
statements. We found no explanation or discussion in the Board minutes for the
crossed out accounts or the effect those changes had on the financial statements.

We found no Board minutes for some months and for those we located, many were
not signed. In addition, all the Board minutes were very general and informally
written, with some noting the author's opinion and personal comments. We found
very little substantive discussion related to strategy, risk management, or the issues
raised in the examinations, nor any diligent follow-up to those examiner findings.
We found the Board minutes only vaguely discussed risk management and
operational issues with no strategic planning specific to financial improvement. In

                                                                                     10
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



our opinion, the Board appeared very lenient and sympathetic to the manager and
did not address repeated examiner concerns regarding accounting processes that
resulted in consistently late Call Report submissions.

Examiners noted that O.U.R. FCU’s Supervisory Committee performed verifications
in accordance with NCUA Rules and Regulations, with no discrepancies noted.
Examiners documented the Supervisory Committee performed these verification
procedures internally until 2010. A Certified Public Accountant issued Agreed Upon
Procedure (AUP) reports effective March 31, 2010, July 5, 2011 and June 30, 2011
and reported findings related to account reconciliations, board oversight, unusual
journal entries and missing member information. The 2011 AUP reports were part of
an investigation related to the member share account imbalance and to identify other
suspicious activity. We found no Supervisory Committee minutes or documented
evidence of any other Supervisory Committee activity, nor did we find any indication
that O.U.R. FCU ever received a full scope opinion audit.

We believe the lack of effective governance by O.U.R. FCU’s Board allowed for
undetected errors in financial reporting, unresolved examiner findings, and the
retention of an incompetent manager.

Weak Control Environment
We determined O.U.R. FCU’s Board and management created a weak control
environment, which allowed for: (1) inaccurate account reconciliations; (2) control
deficiencies in cash handling, and (3) a lack of timely recording of transactions,
preparation of account reconciliations, and monthly financial close. Additionally, the
lack of competent accounting staff and the manager’s unrestricted access to the
general ledger created inadequate segregation of duties. Best business practices
for all credit unions suggest a strong internal control environment is essential to
accurate financial reporting and the prevention of fraud.

We believe the opportunity to commit fraud was ever present. For example, we
determined management did not ensure account reconciliations were accurate or
timely. Examiners noted in their September 30, 2010 examination (effective) that
accounting staff did not keep bank reconciliations up to date and that the staff
needed training to perform the reconciliations in a timely manner. Although small
credit unions have less flexibility to limit access or segregate daily activities, we
believe the Credit Union’s segregation of duties and/or mitigating controls were
insufficient and allowed the manager to write and sign checks, as well as make
deposits, which occurred on a regular basis. Examiners further noted in the June
30, 2009 examination (effective) that accounting staff only performed a reconciliation
of subsidiary accounts to the general ledger annually. In addition, examiners noted
that the Credit Union staff did not properly download the loan subsidiary and did not
perform reconciliations of loans to the general ledger.

                                                                                    11
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



We determined cash controls were deficient. Examiners noted that Credit Union
staff did not open and record the deposits made in night depositories under dual
control. As a standard internal control, management should maintain dual access
control to night depository funds and mail deposits, and require the presence of both
persons when removing, processing, and logging the contents. An interviewee
further noted that there were no controls over vault cash.

The manager had overriding control of the accounting and reporting function and it
appears was the only employee involved in the preparation or reporting of the
financial results. Interviewees noted that the manager often worked after hours and
had full access to the general ledger and related reports. Examiners noted that the
manager consistently failed to close the books in a timely manner, which delayed
preparation of the monthly financial reports and submission of Call Reports.

We believe the lack of internal controls allowed for: (1) the manipulation of accounts;
(2) erroneous and infrequent reconciliations; and (3) the highly suspect accounting
activity by the manager, which all contributed to the failure of O.U.R. FCU.

Inaccurate Accounting
Accurate and timely financial reports form the basis of the financial management
system. We determined the deficient accounting and financial reporting practices at
O.U.R. FCU resulted in inaccurate accounting, unsupported entries, lack of timely
closing of the books and submission of Call Reports, as well as unusual and
unexpected income and expense trends.

Irregular and infrequent posting of transactions created inaccurate financial reporting
and erratic trends in income and expenses. For example, after O.U.R. FCU went
through a system conversion in March 2008, many automated accrual entries and
prepaid expenses were only posted quarterly instead of monthly. In addition,
depreciation schedules did not tie to asset files and the manager did not post the
depreciation entries manually on a regular basis. We also determined reconciliation
of subsidiary accounts to the general ledger was performed only once per year.

The manager did not perform month-end processing in a timely manner, which
caused delays in completion of monthly financial statements and quarterly Call
Reports. This was a recurring and unresolved issue cited in multiple examinations.
The manager was able to convince the Board and examiners that for a variety of
reasons, she could not meet the deadlines.

Financial statements did not accurately reflect the financial condition of O.U.R. FCU
and were misleading to the Board and to the examiners. When the specialist
calculated the appropriate adjustments in May 2011 and revealed the true financial
condition of the Credit Union, it became apparent that O.U.R. FCU was insolvent.

                                                                                    12
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



B. NCUA Supervision of O.U.R. FCU Federal Credit Union

                     We determined examiners did not conduct adequate
     Inadequate
                     examination procedures. Specifically, there was an
     Examination
                     inadequate reconciliation of member share accounts;
     Procedures
                     ineffective resolution of issues identified in examinations, and
                     insufficient assessing or addressing of internal control
weaknesses. As a result, we believe examiners missed the opportunity to mitigate
the loss to the NCUSIF.

Supervisory Background
O.U.R. FCU received a CAMEL Composite rating of 2 in the September 30, 2006
and March 31, 2008 examinations (effective), an indication of strong performance.
Examiners began to note the Credit Union’s deterioration beginning with the
June 30, 2009 examination (effective) when they downgraded the Credit Union to a
CAMEL Composite 3 rating. Beginning with the next contact effective on
March 31, 2010 until the contact effective on April 30, 2011, examiners again
downgraded the Credit Union to a CAMEL Composite 4. By May 31, 2011
(effective), examiners lowered O.U.R. FCU’s CAMEL Composite rating to a 5.
Table 1 (below) provides specific CAMEL ratings during the scope period of our
review.

Table 1

                                     NCUA Examination Results
Credit Union                          CAMEL
                            Work                     Cap/Net     Asset
Examination                Code
                                12   Composite
                                                      Worth      Quality
                                                                             Mgmt       Earnings     Liquidity
                                       Rating
Effective Dates
September 2006               10           2             2           2           2           3            2
March 2008                   10           2             1           2           2           3            2
June 2009                    10           3             4           2           2           4            3
March 2010                   22           4             4           2           3           4            3
June 2010                    22           4             4           2           3           4            3
September 2010               10           4             4           2           3           4            3
March 2011                   22           4             4           2           3           4            3
April 2011                   22           4             4           2           3           4            3
May 2011                     22           5             5           5           5           5            5
June 2011                    22           5             5           5           5           5            5



12
 Work Classification Code (WCC) 10 is a regular on-site examination of a federally chartered credit union and
WCC 22 is a more limited supervision on-site contact of a federal credit union.
                                                                                                             13
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



We noted that O.U.R. FCU was working under a NWRP since March 2010. In
addition, the NCUA issued a Letter of Understanding and Agreement (LUA) in
August 2010, which specifically listed concerns and expectations related to record
keeping, the debit card program, interest rate risk, and capital levels.

Incomplete Exam Procedures and Ineffective Follow-Up on DOR Issues
O.U.R. FCU was designated a low income Credit Union (LICU) because it served
members meeting the low-income criteria. The NCUA has issued supervisory
guidance to credit unions and examiners in a 2005 Letter to Credit Unions titled
“Supervising Community Development Credit Unions" and in a 2010 Supervisory
Letter to examination staff titled “Supervising Low Income Credit Unions and
Community Development Credit Unions.” The Supervisory Letter is intended to help
examiners understand LICU’s unique characteristics and to help those credit unions
compete and survive in their financial markets within the constraints of regulations
and safety and soundness. Based on interviews conducted for this review, we
determined examiners believed this guidance allowed some latitude in resolving
issues and findings.

We believe the most serious instance of an examiner allowing too much latitude
occurred during the examination effective March 31, 2008. During this examination,
the examiner accepted that the AIRES download of share accounts was not
available or even possible to generate without significant cost to the Credit Union –
which was not the case. An AIRES download, while not required, is a normal and
efficient procedure typically used by examiners in the reconciliation of share
accounts. Examiners are expected to obtain the subsidiary downloads directly from
the system to mitigate the possibility of account manipulation. The download, when
compared to the general ledger, would have revealed the out-of-balance condition in
the share accounts. The manager was persuasive in her explanations and
rationalizations to the examiner that the AIRES download was not available, and the
examiner accepted her excuses. In lieu of the AIRES download, the manager
created a substitute report, which matched the general ledger. Once the examiner
received the substitute report, he conducted no further verification. We believe had
the examiner pushed harder to obtain an AIRES or other system generated
download, or looked behind the numbers in the substitute report, the manipulation of
share accounts would have most likely been uncovered in 2008, which could have
reduced the loss to NCUSIF.

Beginning in 2008, examiners consistently raised concerns about O.U.R. FCU’s
inability to achieve the strategic plan, late Call Report submissions, delays in
monthly financial closings, high operating costs, and account reconciliations in
arrears. Again, the manager convinced the Board and the examiners that she was
working on the issues – though she made little progress. Examiners did not elevate
these concerns for stronger supervisory action until August 2010, when they issued
an LUA.
                                                                                     14
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



Peer group comparisons, though not a required examination procedure, are a
commonly used tool examiners use to identify inconsistent results or unexpected
trends. Examination workpapers included peer group information for credit unions of
similar asset size, but we found no evidence that the examiner conducted an
analysis of comparative data or variances. We believe an effective peer group
analysis would have provided an opportunity to detect anomalies and risk areas on
which to focus expanded examination procedures.

NCUA’s 2002 Examiners Guide recommends that examination workpapers include a
Red Flag Procedures questionnaire as well as Internal Control questionnaires. We
did not find these questionnaires or reference to them in the examination files. In
addition, AIRES has a Red Flag Checklist; however, we found no evidence
examiners used it during any of the O.U.R. FCU examinations during the scope
period of our review. The checklist specifically identifies red flag indicators such as
the lack of account reconciliations, report timeliness, lack of adequate segregation of
duties, weak cash controls, and a domineering manager, which based on our
analysis, all were present at O.U.R. FCU and would have warranted expanded
examination procedures.

Risks Not Adequately Assessed or Addressed
We determined examiners did not adequately assess or address numerous internal
control risks present at O.U.R. FCU. The aforementioned NCUA guidance relating
to LICU’s allows for additional sources of funding and resources, including
nonmember deposits and secondary capital. Again, the guidance specifies that
examiners should afford these credit unions the opportunity to survive, which we
determined through interviews that examiners believe this affords some latitude.
However, the guidance also acknowledges that LICU’s present unique supervisory
challenges and pose a higher risk.

In addition, NCUA guidelines state it is imperative that examiners properly evaluate
the internal control environment because it provides reasonable assurance in the
effectiveness and efficiency of the credit union’s operations, the reliability of its
financial reporting, and its compliance with applicable laws and regulations. NCUA
guidance also directs examiners to base the scope, type, and depth of an internal
control review on the credit union’s size, complexity, scope of activities, and risk
profile.

Furthermore, according to NCUA guidance, NCUA internal control examination
objectives help to:

    •   Determine whether the credit union has implemented efficient and effective
        operations and risk management systems;
    •   Determine whether the credit union accurately records transactions;

                                                                                     15
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



      •    Determine timeliness and reliability of financial reporting;
      •    Determine whether the credit union complies with regulations, internal
           policies, and internal procedures; and
      •    Assess whether the credit union has implemented adequate internal controls
           to safeguard assets. 13
Although examiners may have performed minimum procedures and did raise some
internal control matters, in our opinion, examiners did not adequately consider or
achieve these internal control objectives, particularly those related to the control
environment and governance, as previously discussed in the preceding section.

During our review of the Credit Union’s Call Reports, we noted that O.U.R. FCU held
a significant amount of cash on hand given its operations and compared to peers.
We further noted that O.U.R. FCU was subject to a large fraud in the mid 1990’s.
Although examiners documented in the June 30, 2009 and September 30, 2010
examinations (effective), that internal controls over cash, particularly cash on hand,
were weak, we believe the combination of weak internal controls over cash,
combined with significantly large amounts of cash on hand, resulted in an
environment at greater risk of fraud. We found no evidence examiners specifically
identified or addressed this risk in their examination procedures. We believe
examiners should have had a heightened awareness of the risk and the opportunity
for fraud and tailored their examination procedures to address those risks.

We noted examiners rated the Credit Union’s Management component a CAMEL 2
until they downgraded this component to a CAMEL 3 in the March 30, 2010
examination (effective). Examiners consistently cited accounting irregularities, high
operating costs, late monthly closings, and Call Report submissions as problem
areas. Additionally, the Supervisory Examiner (SE) Evaluation completed in June
2009 cited concerns about the manager’s knowledge and skills, but did not suggest
a rating change from the examiner’s Management component CAMEL 2. We
believe the assigned CAMEL 2 rating in Management indicates that examiners
improperly assessed the risk associated with Credit Union management given the
level of operational issues noted in the examinations, the knowledge, skills, and
experience of the manager and Board, the operating results, and the manager’s
highly suspicious activities.

Suggestions

As previously noted, we identified similar issues in our previous OIG MLR report of
Vensure FCU to those issues identified during this review. Specifically, examiners
did not fully evaluate questionable financial data and did not fully investigate
potential red flag issues. We are therefore re-emphasizing the two

13
     NCUA Examiner’s Guide, Chapter 4.
                                                                                    16
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



recommendations from the Vensure FCU MLR report and note that the OIG concurs
with NCUA management’s actions taken or planned related to the following
recommendations from that report:

    •   “Remind examiners to fully evaluate questionable items in financial data
        consistent with a reasonable risk assessment and evaluation of the level of
        risk exposure, and to seek assistance from Supervisory Examiners or other
        specialists when significant risk issues are identified.

    •   Develop additional off-site triggers for Call Reports and other financial
        performance reports, including specific procedures to require supervision
        examiners to review and sign off on those items raised as “red flag” issues to
        ensure such items are fully investigated by examiners.”
Additionally, we are making the following two new suggestions.

We suggest NCUA management:

    1. Remind examiners to obtain an AIRES download, when available, for loan
       and deposit subsidiary ledgers to manually reconcile balances to the general
       ledger.

Management Response

Management agreed with the suggestion. Management indicated the National
Supervision Policy Manual requires examiners to request an AIRES share and loan
download for every examination whenever possible. Management also indicated
that if a credit union will not, or cannot, provide an AIRES share and loan download,
examiners are to notify their supervisor for alternative solutions.

OIG Response

We concur with management’s response.




                                                                                      17
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



    2. Remind examiners to expand examination procedures when they detect red
       flag issues such as ineffective board oversight, weak internal controls, lack of
       segregation of duties, inaccurate financial reporting, and late financial filings.

Management Response

Management agreed with the suggestion. Management indicated The National
Supervision Policy Manual contains a chapter dedicated to audits, recordkeeping,
and fraud. Management also indicated there are a number of tools available to
assist examiners in determining when to expand procedures and will continue to
emphasize the importance of these topics in regional group meetings.

OIG Response

We concur with management’s response.




                                                                                       18
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11



APPENDIX A: NCUA Management Comments




                                                     19
Material Loss Review – O.U.R. Federal Credit Union
OIG-12-11




                                                     20
